No. 20-8093

In the Supreme Court of the United States
MARTIN JAMES KIPP, Petitioner,
v.
RON BROOMFIELD, ACTING WARDEN, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 5,296 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: July 21, 2021
Respectfully submitted,
ROB BONTA
Attorney General of California
RANDALL D. EINHORN
Deputy Attorney General
Counsel of Record
Counsel for Respondent
RDE:JB
SD2021801028
82964868.docx

